No. 21-219
Clear Channel Outdoor, LLC,
Petitioner,

 

Vv.
Henry J. Raymond, Director,
Department of Finance of Baltimore City,
Respondent.

 

 

CERTIFICATE OF COMPLIANCE

I certify that the Respondent's Opposition to Motion for Leave to File Amicus
Curiae Brief in the above entitled case complies with Supreme Court Rule 33.2 as the
motion is 3 pages long and contains 413 words and was prepared in Century
Schoolbook 12 point font.

Respectfully submitted,

MICHAEL REDMOND

Counsel of Record for Respondent
Baltimore City Law Department
100 N. Holliday Street, Suite 101
Baltimore, MD 21202
(410) 396-7536
michael.redmond@baltimorecity.gov

September 22, 2021
